March 19, 2009

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 Information Systems General
         Computer Controls Capping Report (Report Number IS-AR-09-005)

This report summarizes the results of our audit of information systems (IS) general
controls at the XXXXX, XX; xxx xxxxx, xx; xxx xx. xxxxx, xx, Information Technology
and Accounting Service Centers (IT/ASC) and the xxxxxxx, xx, Information Technology
Service Center (ITSC) for fiscal year (FY) 2008 (Project Number 08RD001IS000). We
performed this self-initiated audit as part of the FY 2008 financial statements audit. See
Appendix A for additional information about this audit.

Conclusion

Overall, general computer controls over selected applications, data, and the computer
infrastructure at the information data centers provided reasonable assurance that
computer-processed data were complete, validated for accuracy, and secure. However,
we identified IT audit control issues that do not, alone or collectively, represent a
significant risk to reliance on general computer controls. We provided
recommendations to address these issues during our review.

These issues were in the areas of:

          •   xxxx xxxxxx xxxxxxxxxx, xxxxxx xxxxxxxxxx, xxxxx xxxxxxxxxxxxxx, xxx
              xxx xxxxxxxxxx.
          •   xxxxxx® xxxxxxx xxxxxxxx.
          •   Security clearance processing.
          •   Periodic application risk assessments.
          •   xxxxxxxx xxxxxxx xx xxxx xxxxxx
          •   xxxxxxxx xxxxxxxx plan updates.

While conducting the audit, we identified several additional issues that required
management’s attention. Management took action to correct each of these issues
Fiscal Year 2008 Information Systems                                                 IS-AR-09-005
 General Computer Controls Capping Report


during the audit; therefore, we did not make recommendations to address them. These
issues were regarding:

               •    Obsolete criteria in xxxxxx xxx xxxx hardening standards.

               •    Improper settings, file ownership, and permissions associated with user
                    accounts in the xxxx environment.

               •    Improper access to critical and sensitive datasets in the mainframe
                    environment.

We issued four interim reports during our review in FY 2008 to assist management in
improving information technology operations (ITO). See Appendix B for summaries of
the reports we issued.

We also summarized the status of FY 2008 and previous years’ recommendations in
Appendix C.1 See Table 1 in Appendix C for a list of open recommendations and
Table 2 for a list of recommendations we have closed.

This report contains no recommendations. Management agreed with the facts as
presented in the report. See Appendix D for management’s comments in their entirety.

We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Frances E. Cain, Director,
Information Systems, or me at (703) 248-2100.

      E-Signed by Tammy Whitcomb
    VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments




1
    The recommendations in Appendix C refer to audits of IS general controls only.


                                                           2
Fiscal Year 2008 Information Systems            IS-AR-09-005
 General Computer Controls Capping Report


cc: Ross Philo
    Joseph Corbett
    Harold E. Stark
    Joseph J. Gabris
    G. Dean Larrabee
    Jo Ann E. Mitchell
    Katherine S. Banks




                                            3
Fiscal Year 2008 Information Systems                                                                 IS-AR-09-005
 General Computer Controls Capping Report


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The xxxxx, xxx xxxxx, xxx xx. xxxxx IT/ASCs provide computer processing and
accounting services for the U.S. Postal Service. The xxxxxxx ITSC provides
infrastructure services2 for over 38,000 Postal Service locations. Each of these sites
includes multiple service organizations.

The xxxxx xxx xxx xxxxx IT/ASCs house these three parallel service areas:

    •    Host Computing Services (HCS)

    •    Integrated Business Systems Solutions Center (IBSSC)

    •    Accounting Service Center (ASC)

The xx. xxxxx IT/ASC has a similar structure but without a xxx xxxx.

xxx deploys, operates, and supports systems and applications for all business units
within the Postal Service. The xxxxxx perform application development, enhancement,
and maintenance of systems that enable the Postal Service to achieve its business
objectives. The ASCs are responsible for a variety of accounting and finance activities.
These activities include accounts payable, banking and reconciliation issues, domestic
and international claims, money orders, daily financial reporting, and payroll and
benefits adjustments. All IT-related service centers report to the Vice President,
Information Technology Operations.3 The ASCs report to the Vice President, Controller.

Finally, to facilitate the delivery of mail worldwide, the IT organization:

    •    Maintains the Postal Service’s computing infrastructure.

    •    Manages the corporate-wide intranet.

    •    Runs the systems that connect processing centers and 38,000 post offices
         nationwide.

    •    Controls the technology supporting 650 applications for day-to-day Postal
         Service business, including the payroll for approximately 700,000 career
         employees.


2
  Infrastructure services are those IT functions that support the overall Postal Service enterprise and include such
areas as telecommunications, distributed computing, and IT Help Desk.
3
  Prior to February 25, 2008, all information technology-related service centers reported to the Vice President, Chief
Technology Officer (CTO). They now report to the Vice President, Information Technology Operations.


                                                           4
Fiscal Year 2008 Information Systems                                       IS-AR-09-005
 General Computer Controls Capping Report


   •   Determines the strategic direction for the agency’s information technology.

   •   Employs over 1,000 IT employees located across the continental U.S.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine if general controls for selected
applications, data, and computer infrastructure at the IT centers provided reasonable
assurance that computer-processed data were complete, validated for accuracy, and
secure; data integrity controls were in place; and business practices complied with
Postal Service policies, procedures, and standards. In addition, we evaluated controls
over software, data, personnel, and physical security that affect computer systems.

The scope of our audit at the xxxxx, xxx xxxxx, xxx xx. xxxxx IT/ASCs and the xxxxxxx
ITSC included reviews of the following systems and control areas:

   •   Security Program Planning and Management
   •   Access Controls
   •   Application Software Development and Change Control
   •   System Software Controls
   •   Corporate-Wide Security Policies and Procedures
   •   Segregation of Duties
   •   Service Continuity
   •   Follow-Up on Prior Years’ Recommendations

In addition, we tested the above controls as they relate to the operating systems and
database platforms for the following applications:

   •   xxxxxxxx xxxx xxxxxxxxxx xxxxxx
   •   xxxxxxxxxx xxxxxx xxxxxx
   •   xxxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxx
   •   xxxxx xxxxxxxxxx xxxxxxxxx
   •   xxxxxxx xxxxxxxx xxxxxx

To address the audit objectives, we reviewed:

   •   Password management practices for compliance with Postal Service standards
       and password settings − including expiration intervals and password complexity
       for normal and privileged accounts.

   •   Mainframe and mid-range user access to commands and data to determine
       consistency with policies and procedures.




                                            5
Fiscal Year 2008 Information Systems                                                           IS-AR-09-005
 General Computer Controls Capping Report


    •   Mainframe and mid-range logon IDs to ensure they were properly managed and
        employees had access to appropriate Postal Service data and resources.

    •   System controls by downloading and reviewing the appropriate settings and
        configuration files (in some cases performing live tests to ensure that system
        controls were effective) and interviewing IT personnel and reviewing vendor
        documentation.

    •   Documentation authorizing access to Postal Service systems and data to verify
        adequate protection of Postal Service resources.

    •   xxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxx xxx xxxxxx xxxxxxxx xxxxxxxx xxxxxx xx
        xxx xxxxxxxxx xxx xxxxxxx xx xxxxxxxx xxxxxxxxxx xxxxxx xxxxxxx xxxxxxxx x
        xxxxxxxxx4 xxxx xxxxxx xxxxxxxxxxx xx xxxxxxx xxxxxx xxxxxxxxx, xxxx, xxx
        xxxxxx; xxx xxxxxxxx xxxxxxxxxx xx xxxxxx xxx xxxxxxx xxxxxxxx xxxxxx
        xxxxxxxxx xxxx xxxxxx.

    •   Physical security procedures and practices to verify that physical access controls
        were in place to protect Postal Service resources.

    •   Employee and contractor files to verify that security clearances were current.

    •   Information system policies and procedures to validate they were implemented,
        updated, and followed.

    •   Facility, workgroup, and application recovery plans and test documentation to
        verify that management completed and tested service continuity plans.

    •   System configuration reports and observed backup tape handling procedures to
        verify management backed up critical production files and servers.

    •   The badge access system and key control procedures at each IT/ASC to ensure
        managers reviewed badge and key access lists and validated and documented
        the processes.

To supplement the general computer controls audit, our Vulnerability Assessment Team
conducted tests of selected servers and databases that support the xxxxxxxxxx xxxxxx
xxxxxxx xxxxxx5 xxx xxx xxxxxxxxxx xxxxxxxxxxxx xxxxxx.6 These tests provided


4
  xxxxxxx xx xxx xxxxxxxx xxxxxxxx xxxx xxx xxxxxx xxxxxxx xxxx xx xxxxxxx xxxxxxxx xxxxxxxx xxx xxxxxxxxxx xx x
xxxxxxxxx xxxxxxxxxxx.
5
  Security Vulnerability Assessment of the xxxxxxxxxx xxxxxx xxxxxxx xxxxxx (Report Number IS-AR-08-012, dated
June 25, 2008).
6
  Security Vulnerability Assessment of the xxxxxxxxxx xxxxxxxxxxxx xxxxxx xxxxxxxx (Report Number IS-CS-08-001,
dated August 29, 2008).


                                                       6
Fiscal Year 2008 Information Systems                                        IS-AR-09-005
 General Computer Controls Capping Report


management with an evaluation of the quality of security for servers where the selected
applications reside.

We interviewed personnel at the various IT/ASCs to obtain relevant information and to
corroborate our analyses. We also collected and analyzed documentation on policies
and procedures at these locations as they pertained to the specific areas we reviewed.
In general, we judgmentally selected applications for review based on financial
significance, sensitivity, elapsed time since the last review, and the platforms on which
they reside. xxx xxxxxxxx xxx xxxx xx xxxxxxxx xxxxxxxxxxxxxxx xxxxxxxxxxxx xxxxxx
xx xxxx xxxxxxx.

We used batch and online report tools to extract and display detailed information from
the mainframe, such as user access authorizations, security resource rules governing
access to application data sets, and system parameter settings. We used manual and
automated techniques to analyze computer-processed data. Based on those tests and
assessments, we concluded these data were sufficiently reliable to meet the audit
objectives. We performed all system queries in a controlled environment with
management’s full knowledge and approval.

We conducted this performance audit from October 2007 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials throughout the audit and again
on March 4, 2009, and included their comments where appropriate. We used data from
various mainframe and distributed systems and financial applications in the course of
conducting our audit. We performed limited testing of this information as part of our
review.




                                            7
Fiscal Year 2008 Information Systems                                            IS-AR-09-005
 General Computer Controls Capping Report


PRIOR AUDIT COVERAGE

                                    Final
                   Report          Report     Monetary
Report Title       Number           Date       Impact            Report Results
Fiscal Year      IS-AR-08-007     March 11,   None       Overall, general computer controls
2007                              2008                   were in place and working
Information                                              effectively. However, additional
Systems                                                  controls and actions were needed
General                                                  in the areas of xxxxxx xxxxxxxx
Controls                                                 xxxxxxxx xxxxxxxx, xxxxxxx
Capping                                                  xxxxxxxx xxxxxxxx, classification of
Report                                                   employees in sensitive positions,
                                                         xxxxxxxxxxx xxxxxxxx xxxxxxx,
                                                         and key inventory management.
                                                         This report contained no
                                                         recommendations.
Fiscal Year      IS-AR-07-009     February    None       Overall, general computer controls
2006                              26, 2007               were in place and working
Information                                              effectively. However, additional
Systems                                                  controls and actions were needed
General                                                  in the areas of access to xxxx
Controls                                                 xxxxxxx, xxxxxx xxxxxxxx xxxxxxx,
Capping                                                  xxxxxxxxx xxxxxxxx xxxxxxxx
Report                                                   xxxxxxxxx xxxxxxx, xxxxxxxx
                                                         xxxxxxxx xxxx xxxxxxxxxxx xxxxxx,
                                                         xxxxxxxx xxx xxxxxxxxxxxxxx xx
                                                         xxxxxxx xxx xxxxxxxx. This report
                                                         contained no recommendations.
Fiscal Year      IS-AR-06-004     March 6,    None       Overall, general computer controls
2005                              2006                   were in place and working
Information                                              effectively. However, additional
Systems                                                  controls and actions were needed
General                                                  in the areas of xxxxxx xx xxxxxxxx
Controls                                                 xxxxxxxxx; xxxxxxxxx xxxxxx
Capping                                                  xxxxxxxxxx xxx xxxx xxxxxx
Report                                                   xxxxxxxx; xxxxxxxxx xxxxxxx
                                                         xxxxxxxxxx; xxxxxxxx xxx
                                                         xxxxxxxxxx xxxxxxx xxx xxxxxxxxx
                                                         xxxxxxxxx; xxxxxx xxxxxx xx
                                                         xxxxxxxxxxxx xxxxxxxxx;
                                                         xxxxxxxxxx xxx xxxxxxxx xx xxxxx
                                                         xxxxxx xxxxxxx; xxxxxx xxxxx
                                                         xxxxx; xxx xxx xxxxxxxxx xxxxxxx
                                                         xxxxxxxxx xxxxxxxxxxxxxxxxxx xxx
                                                         xxxxxxxx xxxxxxxx xxxxxxxx. xx
                                                         xxxx xxxxxxxxxx x xxxxxxxx xxxxx
                                                         xxxxxxxxx xxxxxxxxxxxxx xxxxxx
                                                         xx xxxxxx xxxxxxx xxxx xxx
                                                         xxxxxxxxx. This report contained
                                                         no recommendations.



                                               8
Fiscal Year 2008 Information Systems                                        IS-AR-09-005
 General Computer Controls Capping Report



                    APPENDIX B: SUMMARY OF REPORTS ISSUED

System Software Controls at the xxxxx, xxxxxxxxx xxx xxx xxxxx, xxxxxxxxxx
Information Technology and Accounting Service Centers for FY 2008 (Report Number
IS-AR-08-011, dated June 3, 2008).

This report presented the results of our audit of system software controls at the xxxxx
xxx xxx xxxxx IT/ASCs. The objective of this audit was to determine if management
established a framework and continuing cycle of activity for limiting access to system
software, monitoring access to and the use of system software, and controlling system
software changes. Overall, management adequately configured data systems and
platforms to optimize security and appropriately manage risks for the selected
applications that we reviewed. xxxxxxx, xxx xxxx xxxxxxxxxxxxxx xxx xxx xxxxxx
xxxxxx xxxxxxxxx xxxxxxx xxx xxxxxxx xxxxxxxxxxxx xxxxxxxxxx xx xxxxxx xxxxxxxx
xxxxxxx xxxxxxxx xx xxxxxxxx xxxxxxxxxxxxxx. xx xxxxxxxx, xxxx xxxxxxxxxxxxxx xxx
xxx xxxxxxxx xxx xxx xx xxxxx xxxxxxxx xxx xxx xxx xxxxxxxxxxxx xxxxxx xxx xxxxxx
xxxx xxx xxxxxxxxxx xx xxxxxxxx xxx xxxxxxx.

We provided three recommendations to (1) develop procedures to ensure xxxx
administrators review exception reports and timely correct xxxx server settings
deficiencies to comply with hardening standards; (2) update xxxx hardening standards
to add applicable audit features and to specify log review and retention requirements;
and (3) implement xxxx system audit features and log review and retention
requirements as specified in the revised hardening standards. In addition, management
had corrected, or was in the process of correcting, other minor issues that we identified
during the review concerning obsolete criteria in the xxxxxx xx xxxx hardening
standards, awareness of the existence of the Postal Service’s xxxx hardening
standards, and obsolete and outdated information regarding administering and installing
software patches in a xxxx environment.

Access Controls at the xxxxx, xxxxxxxxx; xxx xxxxx, xxxxxxxxxx; xxx xx. xxxxx, xxxxxxx
Information Technology and Accounting Service Centers for Fiscal Year 2008 (Report
Number IS-AR-08-015, dated August 15, 2008).

This report presented the results of our audit of access controls at the xxxxx, xxx xxxxx,
xxx xx. xxxxx IT/ASCs. The objective of this audit was to determine whether the Postal
Service had adequate controls to limit or detect access to its information resources
(data, programs, equipment, and facilities) and protect these resources against
unauthorized (accidental or intentional) modification, loss, damage, or disclosure.
Overall, physical access controls for IT facilities and logical access controls xxx
xxxxxxxxx, xxxx, xxxxxxx, xxx xxxxxxxx xxxxxxxxx were in place and functioning
adequately. However, our testing identified opportunities to improve compliance with
these controls. xxxxxxxxxxxx, xxxxxxxxxx xxxxx xxxxxxx xxxxxxx xxxxxx xxxxxxxx xx
xxxxxxxx xxxx xxxxxxxx xx xxxxxxxxxx xxx xxxxxxxxxxx xxxxxxxxx xxxx xxxxxx xxxx


                                            9
Fiscal Year 2008 Information Systems                                            IS-AR-09-005
 General Computer Controls Capping Report


xxxxxx, xxxxxxxxx xxxxxx xxxxxxxx xx xxxxxx xxxxxxxx, xxx xxxxxxxxx xxxxxxxx
xxxxxxxxx xxxxxxxxxxxx xxx xxx xxxxxx xxxxxxxxx. xx xxxx x xxxxxxxxxxxxxx xx
xxxxxxx xx xxxxxxxxx xxxxxxxxx xx xxxxxxxx xxx xxxxxx xxxx xxxxxxxx xx xxxxxxxxxx
xxx xxxxxxxxxxx xxxxxxxxx xxx xx xxxxxx xxxx xxxxxx xxxx xxxx xxxxxx xx xxxxxxx. xx
xxxx xxxx x xxxxxxxxxxxxxx xx xxxxxxx xx xxxxxxxxx xxxxxxxxx xx xxxxxxxxxxxx
xxxxxx xxxxxx xxxx xxxxxxxx xx xxxxxx xxxx xx xxx xxxxxxx xxx xxxxxxx xxxxxxx.

Security Policies and Procedures (Corporate-Wide) at the Information Technology and
Accounting Service Centers for Fiscal Year 2008 (Report Number IS-AR-09-002, dated
November 13, 2008).

This report presented the results of our audit of corporate-wide security planning and
program management at the Postal Service’s IT/ASCs located in xxxxx, xx, xxx xxxxx,
xx, xxx xx. xxxxx, xx. The objectives were to determine whether management
established a framework and continuing cycle of activity for assessing risk, developing
and implementing effective security procedures, and monitoring the effectiveness of
these procedures. Overall, management established information security policies and
procedures to protect critical and sensitive information resources. These included, but
were not limited to, xxxxxxxxxxxx xxx xxxxxxxxxx xx x xxxxxxxx xxxxxxxxxx xxxxxxxxx
xxx xxxxxxxxx xxxxxxxx xxxxxxxxxx xx xxxxxx xxx xxxxxxxxxxx xxxxxxxxx.

However, our review identified opportunities to improve compliance with these policies
and procedures. Specifically, management could improve controls by initiating security
clearance processing for all employees occupying sensitive positions. In addition,
xxxxxxxxxx xxxxx xxxxxxx xxxxx xxxxxxxxxxxxxx xx xxxxxxx xxx xxxxxxxxxxxxxxx xx
xxxxxxxxx xxxxxxxxx xx xxxxxxxxxx xxxxxxxx xxxxxxxxxxx xxxx xxxxxxxxxxx. We
provided four recommendations to: (1) develop a process to ensure security clearances
are initiated for individuals in positions classified as sensitive; (2) provide reports to the
Security Control Officer on a semiannual basis to track the security clearance status of
employees in sensitive positions at the xxxxx, xxx xxxxx, xxx xx. xxxxx IT/ASCs;
(3) perform risk reassessments on the six applications reviewed during this audit; and
(4) establish milestones to review all sensitive and critical applications for current risk
assessments and complete the reassessments on those applications that are not
current. In addition, management took corrective action to initiate nine security
clearances we identified as missing during the audit.

Service Continuity at the Information Technology and Accounting Service Centers for
Fiscal Year 2008 (Report Number IS-AR-09-003, dated January 20, 2009).

This report presented the results of our audit of service continuity at the xxxxx, xx, xxx
xxx xxxxx, xx, IT/ASCs. The objective of this audit was to determine whether service
continuity controls were in place to minimize the risk when unexpected events occur
and to ensure critical operations continue without interruption or can be resumed within
a reasonable amount of time. Overall, management adequately developed the
infrastructure and service continuity processes and procedures to maximize the


                                              10
Fiscal Year 2008 Information Systems                                         IS-AR-09-005
 General Computer Controls Capping Report


availability of critical Postal Service operations while minimizing potential risks for
service interruption. The Postal Service was undergoing significant changes in the
computing infrastructure, including virtualization and replication. To further minimize the
risk of service disruption, management could improve processes xxx xxxxxxxx xxxxxxx
xx xxxx xxxxx xxx xxxxxxxxxx xxx xxxxxxxx xxxxxxxx xxxxxxx xxxxxxx xx xxx xxx xxxxx
IT/ASC. We made two recommendations to management that included designating
personnel responsible for administering the backup process for the xxx xxxxx xxx
Center and implementing procedures to ensure xxxx backup tapes were stored off-site.
Additionally, we made two recommendations to management that included clarifying the
responsibility for maintaining, administering, and updating the xxxxxxxx xxxxxxxx plan
for xxx xxxxx.




                                            11
Fiscal Year 2008 Information Systems                                                             IS-AR-09-005
 General Computer Controls Capping Report


                                   APPENDIX C: ACTION ON PRIOR YEAR RECOMMENDATIONS

Table 1: Open Recommendations

                                                                                                                Responsible Organizations
    Report          Recommendation
                                                         Description                    CTO/     xxx8     xxx    xxx9 xxx10    USPIS11    ERM12          Controller
    Number              Number
                                                                                        ITO7
IS-AR-07-01713             1(S)14          Assess the risk of all IT/ASC positions        x                                            x           x         x
                                           (career and non-career) for the
                                           purpose of assigning them as
                                           sensitive.
                             2             Establish a requirement to periodically        x                                            x           x         x
                                           reassess the risk of sensitive
                                           positions to determine if they should
                                           retain the designation.
                             3             Establish a central location to                x                                            x           x         x
                                           maintain an official list of sensitive
                                           positions by occupation code, title,
                                           and job description.
                            4(S)           Notify the Postal Inspection Service           x                                            x           x         x
                                           when management creates a new
                                           IT/ASC position, hires a new
                                           employee, or promotes an employee
                                           to a new position to make certain the
                                           proper clearance level is attributed to
                                           the employee.




7
  Vice President, CTO. The Postmaster General replaced the CTO position on February 25, 2008, with the ITO position.
8
  IT/ASC, xxxxx, xx.
9
  IT/ASC, xx. xxxxx, xx.
10
   ITSC, xxxxxxx, xx.
11
   U,S. Postal Inspection Service.
12
   Employee Resources Management.
13
   Separation of Duties at the xxxxx, xxxxxxxxx; xxx xxxxx, xxxxxxxxxx; xxx xx.xxxxxx, xxxxxxxx Information Technology and Accounting Service Centers,
dated August 29, 2007.
14
   (S) = Significant.
                                                                              12
  Fiscal Year 2008 Information Systems                                                           IS-AR-09-005
   General Computer Controls Capping Report


  Table 1: Open Recommendations (cont.)

                                                                                                              Responsible Organizations
                  Recommendation
Report Number                                          Description                   CTO/                                                               Corporate
                      Number                                                                    xxx      xxx      xxx      xxx     USPIS      ERM
                                                                                      ITO                                                              IT Portfolio
IS-AR-07-017                5            Amend the Administrative Support                                                             x
(cont.)                                  Manual to designate the Chief
                                         Inspector as responsible for defining
                                         the criteria for identifying sensitive
                                         positions, to specify the criteria for
                                         designating a position as sensitive,
                                         and to update the list of position types
                                         requiring a sensitive clearance.
IS-AR-08-01115            1(S)           Develop procedures to ensure xxxx              x        x        x
                                         xxxxxxxxxxxxxx xxxxxx xxxxxxxxx
                                         xxxxxxx xxx xxxxxx xxxxxxx xxxx
                                         xxxxxx xxxxxxxx deficiencies to
                                         comply with hardening standards.
                            2            Update xxxx hardening standards to             x        x        x
                                         add applicable audit features and to
                                         specify log review and retention
                                         requirements.
                            3            Implement xxxx system audit features           x        x        x
                                         and log review and retention
                                         requirements as specified in the
                                         revised hardening standards.




  15
    System Software Controls at the xxxxx, xxxxxxxxx xxx xxx xxxxx, xxxxxxxxxx Information Technology and Accounting Service Centers for Fiscal Year 2008,
  dated June 3, 2008.
                                                                             13
  Fiscal Year 2008 Information Systems                                                             IS-AR-09-005
   General Computer Controls Capping Report


          Table 1: Open Recommendations (cont.)

                                                                                                                 Responsible Organizations
                  Recommendation
Report Number                                            Description                     CTO/                                                             Corporate
                      Number                                                                      xxx       xx       xxx     xxx      USPIS      ERM
                                                                                         ITO                                                             IT Portfolio
IS-AR-08-01516              1            Develop an xxxxxxxxx xxxxxxxxx xx                 x        x
                                         xxxxxxxx xxx xxxxxx xxxx xxxxxxxx xx
                                         xxxxxxxxxx xxx xxxxxxxxxxx xxxxxxxxx
                                         xxx xx xxxxxx xxxx xxxxxx xxxx xxxx
                                         groups.
                            2            Develop an automated procedure to                 x                                   x
                                         periodically review xxxx xxxxxxxx xx
                                         xxxxxx xxxx xx xxx xxxxxxx xxx xxxxxxx
                                         xxxxxxx.
IS-AR-09-00217              2            Provide reports to the Security Control                                                                   x
                                         Officer on a semiannual basis to track the
                                         security clearance status of employees in
                                         sensitive positions at the xxxxx, xx; xxx
                                         xxxxx, xx; xxx xx. xxxxx, xx IT/ASCs.
                            3            Perform risk reassessments on the six             x
                                         applications reviewed during this audit.
                            4            Establish milestones to review all                x
                                         sensitive and critical applications for
                                         current risk assessments and complete
                                         the reassessments on those applications
                                         that are not current.




  16
     Access Controls at the xxxxx, xxxxxxxxx; xxx xxxxx, xxxxxxxxxx; xxx xx. xxxxx, xxxxxxxx Information Technology and Accounting Service Centers for Fiscal
  Year 2008, dated August 15, 2008.
  17
     Security Policies and Procedures (Corporate-Wide) at the Information Technology and Accounting Service Centers for Fiscal Year 2008, dated
  November 13, 2008.
                                                                                14
  Fiscal Year 2008 Information Systems                                                               IS-AR-09-005
   General Computer Controls Capping Report



             Table 1: Open Recommendations (cont.)

                                                                                                                   Responsible Organizations
                     Recommendation
Report Number                                              Description                     CTO/                                                       Corporate
                         Number                                                                      xxx      xx       xxx     xxx     USPIS   ERM
                                                                                           ITO                                                       IT Portfolio
IS –AR-09-00318               1            Designate personnel responsible for               x
                                           administering the xxxxxx xxxxxxx xxx xxx
                                           xxx xxxxx xxx xxxxxx.
                             2(S)          Implement procedures to ensure xxxx                x
                                           xxxxxx xxxxx xxx xxxxxx xxxxxxxx.
                              3            Clarify the responsibility for maintaining         x
                                           and administering the xxxxxxxx xxxxxxxx
                                           xxxx xxx xxx xxx xxxxx IT/ASC.
                              4            Update the xxxxxxxx xxxxxxxx xxxx xxx              x
                                           xxx xxx xxxxx IT/ASC.




  18
       Service Continuity at the Information Technology and Accounting Service Centers for Fiscal Year 2008, dated January 20, 2009.
                                                                                15
  Fiscal Year 2008 Information Systems                                                          IS-AR-09-005
   General Computer Controls Capping Report



  Table 2: Closed Recommendations

                                                                        Responsible Organization
  Report Number              Recommendation Number
                                                                     CTO       xxx      xx     xxx     xxx     ERM
               19
IS-AR-07-018                                 1                         x        x       x
                                             3                         x        x       x
IS-AR-08-00220                               1                         x                                x
                                            2(S)                       x                        x
                                             3                         x
                                            5(S)                       x                                x
IS-AR-09-002                                 1                                                                  x




  19
     xxxxxxxx xxxxxxxx xxxxxxx xxx xxxxxxxx xxxxxx xxxxxxx xxxxxxxxxxxx xx xxx xxxxx, xxxxxxxxx xxx xxx xxxxx,
  xxxxxxxxx Information Technology and Accounting Service Centers for Fiscal Year 2007, dated September 14, 2007.
  20
     Information System Access Controls at Selected Information Technology Facilities for Fiscal Year 2007, dated
  November 6, 2007.


                                                        16
Fiscal Year 2008 Information Systems                      IS-AR-09-005
 General Computer Controls Capping Report


                      APPENDIX D: MANAGEMENT’S COMMENTS




                                            17
